<html>
<title> - DEFENDING AMERICA'S TRANSPORTATION INFRASTRUCTURE</title>
<body><pre>[Senate Hearing 107-612]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-612

           DEFENDING AMERICA'S TRANSPORTATION INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2001

                               __________

                          Serial No. J-107-44

                               __________

         Printed for the use of the Committee on the Judiciary

81-246              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

                    Subcommittee on Crime and Drugs

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
                                     MITCH McCONNELL, Kentucky
                 George Ellard, Majority Chief Counsel
                   Rita Lari, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.     4
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     6

                               WITNESSES

Beatty, Jeffrey K., President and Chief Executive Officer, Total 
  Security Services International, Marietta, Georgia.............    19
Brown, Donald E., Professor and Chair, Department of Systems 
  Engineering, University of Virginia, Charlottesville, Virginia.    17
Chrestman, Tony, President, Ruan Transport, Des Moines, Iowa.....    22
Jenkins, Brian M., Senior Advisor to the President, RAND 
  Corporation, Santa Monica, California..........................    14
Parker, Hon. Mike, Assistant Secretary of the Army (Civil Works), 
  Department of the Army, Washington, D.C........................    10

 
           DEFENDING AMERICA'S TRANSPORTATION INFRASTRUCTURE

                              ----------                              


                       TUESDAY, OCTOBER 16, 2001

                      United States Senate,
                   Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:37 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., chairman of the subcommittee, presiding.
    Present: Senators Biden, Schumer, and Grassley.

OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Chairman Biden. The hearing will come to order. I thank the 
witnesses for their patience and for their willingness to be 
here.
    Welcome to this morning's hearing on Defending America's 
Transportation Infrastructure. As you know, only the initial 
part of this hearing will be open to the public. I want to 
explain straight up front the reason for this for the press.
    There is no classified information, there is no information 
that I am aware of that any witness is about to tell us about 
any imminent attack. They are not in a position to know that, 
even if there were. I don't want you to think the closing of 
this hearing has anything to do with the idea that we know 
something is about to happen and we have decided that we have 
to keep that quiet, because some press have raised that 
question. It has nothing to do with that.
    What it has to do with is there is going to be an open 
statement, a public statement made by each of the witnesses, 
but we want to get into some detail about the vulnerabilities 
of the system. And although it is probable that the full-blown 
terrorist organization or organizations would understand what 
those vulnerabilities are and would not learn much by anything 
we said publicly, what we are concerned about is the prospect 
of copycat folks and screwballs out there who have not thought 
of some of these vulnerabilities.
    I realize it is a delicate balance here. I have been a 
Senator now for 29 years. Other then the 10 years of being on 
the Intelligence Committee, I don't recall closing many 
hearings at all, but I don't want to make this a bigger deal 
than it is in terms of why it is being closed.
    The second reason that we have decided to close it, 
speaking for myself, is that I think we are doing a pretty good 
job unintentionally of scaring the living devil out of the 
American people about things that could happen.
    Our job is to determine what could happen; our job is to 
look at the worst-case scenario. Many of those worst-case 
scenarios are highly, highly, highly improbable. Not a subject 
for this hearing today is the issue of, for example, anthrax 
out of airplanes, and so on.
    The way we talk about it, most Delawareans think that all 
anybody would have to do is get a hold of a crop duster and 
fill it up with anthrax, like grass seed, and spread it over a 
large population and tens of thousands of people are going to 
be affected. Putting anthrax in aerosol form is incredibly 
difficult. They wouldn't be sending it in the mail if they were 
able to do it otherwise.
    It is the same way with smallpox. The prospect of an 
individual terrorist getting access to smallpox and infecting 
tens of thousands of people is highly unlikely. Is it a worst-
case? Yes. Is it possible? Yes, but it is about as possible as 
your being struck by lightning twice in the same day.
    Again, I think it is important that we not inadvertently, 
in doing our job, which we have to do, unnecessarily alarm the 
American people. I am going to say something that my staff will 
be very upset that I say, but I believe very firmly that my 
granddaughters are going to write about this in their school 
reports as an episode in American history, not as a fundamental 
shift in American history.
    So I just want to sort of keep this on the straight and 
narrow, be level-headed about it and put it in perspective. But 
I do want to be able to ask each of the witnesses, who 
collectively have a great deal of experience dealing with these 
issues, some of the worst-case possibilities.
    Maybe it is appropriate in the sense that it need not be 
classified and it is appropriate in the sense that Americans 
would have a right to know it. There is nothing in particular 
that we are aware of that is about to happen anywhere, but it 
just seems to me unnecessary to do that now. We may decide 
after the hearing to declassify the whole hearing--not 
declassify, but take it all public based on what we have 
learned.
    So as I said, only the initial portion of the hearing will 
be open to the public. Pursuant to Senate rules, we will close 
the hearing after some initial testimony to allow the expert 
witnesses to speak freely to the subcommittee regarding 
potential threats to the transportation infrastructure.
    It has now been over a month since the tragic events of 
September 11, and during that time we have heard many speeches 
memorializing the losses of that day. There is nothing more 
that I can say, and I suspect Senator Grassley can say, to 
speak to the profound loss that those thousands now of family 
members dealing with the loss that occurred on the 11th are 
undergoing.
    Many of us know from personal experience when you get that 
phone call it is like your chest turns into a black hole and 
you are being sucked inside it. And there is not much any of us 
can do, except to express our sympathies and guarantee our 
support, not just support but our long-term support and 
commitment to those families.
    What we can do and what we have been doing in the Senate 
and the House, and the White House as well, is to work as hard 
as we can to prevent future terrorist attacks and if, in fact, 
God forbid, they occurred, to diminish the damage they can do.
    We have recently passed bills to make life harder for those 
who commit terrorist acts. We have passed the antiterrorism 
bill that will help law enforcement suck the oxygen out of the 
air that these sons-of-guns breathe. We have passed a law to 
make air travel safer, and I am sure we will continue to 
improve on that so that our own airlines will not again be 
turned into weapons against the American people.
    Now, we need to focus on the other areas of potential 
vulnerability. In so doing, we need to think ahead of the 
terrorists, think of the next step and not just the last 
attack. The horse is out of the barn when it comes to the 
airlines. We are backfilling now to prevent it from happening, 
but we will hopefully get ahead of the curve here before the 
horse gets out of the barn on some other means of surface 
transportation. We need to stop it before it happens, if at all 
possible.
    We need to think of the ways terrorists can attack. Before 
September 11, few people thought someone would use a commercial 
airliner as a missile aimed at our buildings. But in light of 
the events of September 11, much attention has been paid in the 
last month to the need for enhanced security and criminal 
penalties in our Nation's aviation system. But as was noted in 
a recent New York Times editorial, ``airports and airplanes are 
like Fort Knox when compared to other forms of transport.''
    These hearings will focus on the extent to which security 
vulnerabilities exist in non-aviation transportation. That is 
because today we need to anticipate the threat that may come 
not just in the belly of a plane, but in the hold of a ship or 
in the dark of a tunnel or the span of a bridge.
    Each day, tens of thousands of companies move tons of 
cargo, much of it hazardous, over the Nation's railroads, 
waterways and highways. Countless additional tons of cargo 
arrive daily in U.S. ports of entry. More importantly, millions 
of Americans use surface transportation to reach their 
workplaces, visit their loved ones, and return to their homes.
    Our modes of surface and sub-surface transportation may not 
be keeping up with the security advances that we are seeing in 
the air. For example, it has recently been reported that 98 
percent of all cargo containers enter U.S. ports without any 
inspection. As one commentator has noted, ``We are now 
experiencing the dark side of a transport system in which 
efficiency has trumped public security.''
    As I recently noted on the floor of the United States 
Senate, when an Amtrak Metroliner train and an Amtrak AmFleet 
train are in a tunnel at the same time--and this is often the 
case--there are more people in that confined space than five 
full 747 aircraft.
    I am not an expert on these issues and I am not prepared to 
measure the extent of the problem for myself, and without 
responsible inquiry I don't think it is possible. That is why I 
am glad to welcome our panel of experts today to educate us, 
and I will be happy to close this hearing to the public at the 
appropriate time so that our witnesses may feel free to speak 
about any concern they have.
    I hope today's hearing will be a constructive step toward 
the goal of shoring up our defenses against terrorism in all 
realms of our transportation infrastructure. In the wake of 
September 11, we need to reevaluate our rules of prevention 
because the rules of engagement have changed.
    Now, I would like to turn to Senator Grassley, the ranking 
member of the subcommittee, and thank him for working so hard 
in putting this together.
    I look forward to hearing all the witnesses at the 
appropriate time. I see my friend from New York has come in and 
we will give him the opportunity to make an opening statement, 
as well.
    What I will do at the appropriate time, which I will warn 
you about ahead of time, is I am going to read a little about 
your backgrounds, more than we usually do, so people can 
understand who we have before us.
    Senator Grassley?

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. Well, Mr. Chairman, in holding this 
hearing you show your concern about the safety and the economic 
vitality of our ground transportation system. Our waterways, 
highways, rail systems, pipelines and more, are critical to the 
economy and must be protected from terrorist attack.
    Americans must be able to continue to travel by car, truck, 
train, whether for business or leisure, and do it without fear. 
We have to increase the confidence of the American traveling 
public in the safety and integrity of our transportation 
system. By doing that, I think we show the terrorists that they 
are not going to break the spirit of America, as they try to 
put psychological trauma upon our people.
    I welcome Mr. Tony Chrestman, President of Ruan Industries, 
of Des Moines, Iowa. Ruan is one of America's largest trucking 
companies. Mr. Chrestman has more than 30 years' experience in 
logistics and transportation services. He is active in the 
American Trucking Association and Council on Logistics 
Management, and we look forward to his advice.
    I would also join the chairman in welcoming Mike Parker, 
the Assistant Secretary of the Army for Civil Works. The Corps 
is heavily involved in maintaining river transportation 
infrastructure. Of course, the importance of that 
infrastructure is underscored, I think, by the appearance here 
this morning of the Assistant Secretary.
    As you know, Mr. Chairman, I have focused a great deal of 
my time on the need for smaller airports, because that is how 
Iowa is served. This mode of transportation is important not 
only to our economy, but also to the people of Iowa and 
elsewhere who need to travel. I realize that today's hearing 
will not focus upon aviation, but I bring this to your 
attention in hopes that maybe sometime we can do something in 
that area as well.
    The hearing today is about the backbone of the 
transportation system, an extensive interrelated network of 
public and private roads, railroads, transit routes, waterways, 
terminals, ports, and pipelines. It is a system that supported 
more than 2.7 trillion vehicle miles in the year 1999, with a 
total tonnage miles of 3.1 trillion. Together, these modes of 
transportation, without even considering airlines, make up more 
than 65 percent of the value of U.S. international merchandise 
trade.
    Grain is Iowa's biggest commodity, and it is primarily 
transported by train and river barge. Iowa is the bread basket 
not just for the United States, but for the world. To hit our 
means of transporting grain would be to keep food from the 
hungry of the world and to devastate our own economy.
    As to trucking, more than 80 percent of the value and more 
than 74 percent of the weight of all goods originating in Iowa 
are transported by truck. Over 64 percent of shipping 
originating in Iowa is transported to other States. These forms 
of transportation are important to my State, but also the rest 
of the country.
    Air is not the only method of travel for the general 
public, obviously. In fact, in the aftermath of September 11, 
those Americans who usually travel by air at least had the 
option of traveling by car, train or bus.
    So, Mr. Chairman, much is at stake. If we can't ensure the 
safety of our transportation system, we will have an equally 
difficult time sustaining the economic vitality of these 
industries for our economy, as well as instilling confidence in 
the traveling public.
    We need to be focusing, then, on ways in which we can 
address the issue of security for the trucking industry. I am 
sure we will hear many recommendations here today, but I would 
want to suggest looking at the trucking industry's ability to 
access background checks and licensing requirements for 
operators of their vehicles, tighter security and scanning 
methods at the borders, and the safety concerns of the 
communities and workers of this transportation network.
    Although I am confident that the various trucking 
industries will rapidly take the necessary measures to ensure 
that operator licensing requirements are rigorously developed 
and followed, I am concerned about the coordination among the 
States in sharing this information.
    At this time, Ruan Industries, of Des Moines, has no way of 
accessing a Federal criminal database to check on the 
backgrounds of potential employees. Mr. Chrestman's employees 
have to rely on other time-consuming and often unverifiable 
methods that usually differ from State to State. So I hope that 
could change.
    The other problems have to do with border and port 
security, especially with regard to inspecting shipments. As I 
understand it, less than 5 percent of the entries at borders 
and less than 1 percent of the entries at ports are randomly 
inspected. Consequently, these statistics do not generate a 
great deal of confidence that our borders are secure.
    I am also concerned with the safety of our locks, dams and 
bridges. My State is flanked on both sides by the Missouri, on 
the west, and the Mississippi on the east, which have extensive 
systems of barge transport. This system carries grain from Iowa 
to export on the lower Mississippi. It also transports salt, 
fertilizer, petroleum products, cement and other bulk 
commodities up river to Iowa. There are also numerous bridges, 
obviously, over the rivers that are critical to train and truck 
transportation. It is not unlikely that terrorists would target 
them in an effort to disrupt transportation systems.
    Finally, Mr. Chairman, one of the lessons of the tragic 
events of Oklahoma City and the events of September 11 is that 
terrorists find their weapons of mass destruction once they are 
here. They rarely bring them with them. The tools that the 
hijackers used in New York and elsewhere were box cutters and 
other crude instruments, but their weapons of mass destruction 
were our jets. The point is their weapons of mass destruction 
are all around our country, in trucks, in cargo trailers, in 
rail cars, in ports and pipelines, and even recreation boats.
    What is more, as the September 11 terrorist act showed, it 
had a devastating effect on the general confidence of the 
public, particularly in traveling, whether for business or 
leisure. Air transportation came to a grinding halt. The only 
thing that allowed Americans to keep moving were our highways, 
waterways and railroads. That is why this hearing is so 
important, and I thank you for holding it.
    Chairman Biden. Thank you.
    Senator Schumer?

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. I too want to 
thank you for holding this hearing on the critical issue of 
security of our transportation infrastructure.
    Unfortunately, we have learned a lot after September 11 and 
one of the things we have learned is terrorists look for the 
weak pressure points in our society and then they strike. 
Unfortunately, many aspects of our transportation system are 
those weak pressure points. We have lived in a free and open 
society, thank God, for all these hundreds of years, and the 
transportation system reflects it.
    But because people agglomerate at the transportation 
system, because, by definition, there is movement and they have 
to move things to do what they want to do--move bad things, 
explosives or whatever--it is really important that we examine 
our transportation infrastructure because it is one of the 
places where terrorists will focus their attention. So nothing 
could be more timely than holding this hearing and I thank you 
for it.
    We are each focusing on areas that affect our States, 
although we want to look at the whole Nation. Senator Grassley 
talked about truck and barge and the things that are needed in 
Iowa. I would like to focus a little bit on rail transportation 
because of its importance to both the Nation and to New York.
    I first want to say, Mr. Chairman, your leadership on rail 
transportation, and on Amtrak in particular, is just exemplary, 
and I think all of us who believe in rail transportation, its 
necessity and the need to make it safe and secure, just thank 
you for everything that you have done.
    The aftermath of the attack on September 11 has made one 
simple fact clear, and that is that our Nation's rail system is 
essential and has to be made secure. Last month, when our 
airports were shut down, it was rail that provided one of the 
only means of travel available in many parts of the country. 
Amtrak added trains and provided transportation to New York 
City for relief workers and military personnel and public 
officials. They honored plane tickets for stranded travelers.
    Amtrak proved its worth, as more and more Americans relied 
on its service during this crisis. In the week following the 
September 11 tragedy, rail ridership increased 17 percent 
nationally, and Amtrak had to add 30 percent more seating 
capacity on the Northeast corridor.
    What we have learned in this brave new world in which we 
live is that all our transportation systems are interdependent 
and we need them all. You cannot simply say let's make one 
secure in the preeminent part of the system. We have to work on 
all of them, whether that be air, rail, road, or water or ship.
    The Senate has already passed legislation, I am glad to 
say, addressing airline security. The next item of business 
must be legislation on the pressing issue of rail security. We 
need both, and we need them now. That is why I am glad--and I 
know Senator Biden has joined me in this in playing his 
leadership and spearhead role--that Senator Hollings and 
Senator McCain introduced yesterday a bill that was modeled on 
the amendment that we had worked on to the airline security 
bill.
    The Hollings bill will fill critical gaps in our system of 
security for rails by providing $1.7 billion to provide new 
security equipment, training and personnel to our railway 
system. Included in this package would be something of great 
concern in New York, and that is the tunnels under the Hudson 
River. That is also of great concern in Maryland and in 
Washington, D.C.
    We have, coming out of Penn Station, for instance, tunnels 
that go on for more than a mile, sometimes as much as two. They 
don't have good ventilation systems. They don't have good 
egress if, God forbid, something were to happen. Before 
September 11, nobody paid much attention to that, but now we 
are, and I think that is extremely important and I am glad that 
we are looking at that issue.
    In addition to pressing for this legislation, I have asked 
Secretary of Transportation Mineta to conduct a comprehensive 
study of the Nation's rail security and report back in two 
months regarding the status of current Amtrak safety standards 
and procedures; the most urgently needed upgrade throughout our 
rail system, freight as well as passenger; the ability of our 
rail, Amtrak and others, to respond and operate in the face of 
another terrorist attack; and the methods of implementation and 
execution of new security and safety measures.
    The information that we will receive from this study, 
coupled with additional funds for railroad safety from the 
Hollings bill, will allow us to put in place security measures 
designed to provide the maximum security possible.
    Let me say as somebody who takes the rails--and I know my 
colleagues would agree with me because I know they have taken 
them, or I certainly know Senator Biden has--we are more secure 
today than we were before September 11. If you go ride the 
trains, just as when you ride the planes, you will see much 
more security personnel. But it is being done in an ad hoc way, 
in light of the crisis, and we need a permanent regimen.
    We may need to look at inspection of baggage and metal 
detectors and things like that, which we do at airports. I am 
hopeful that between the legislation that Senator Biden, myself 
and a number of our colleagues have been working on, embodied 
in the Hollings bill, as well as the study from Secretary 
Mineta, we will get quick answers and then move without delay 
to implement them.
    Thank you, Mr. Chairman.
    Chairman Biden. Thank you very much.
    I am going to introduce the background of each of the 
witnesses all at once and then I am going to start with you, 
Mike, and we will work our way down.
    Mike Parker is the Assistant Secretary of the Army for 
Civil Works. Since 1996, he has been the owner and president of 
GFG Farms Incorporated and Wells Resources Incorporated, 
companies with timber and farming and leasing operations.
    In 1999, he was involved in something he would like to 
forget, the closest race I think that ever existed in 
Mississippi history for governor.
    Is that right, Congressman?
    Mr. Parker. It was close.
    Chairman Biden. It was close; I mean, it was a heck of a 
race.
    In 1989, he was elected to the 4th District of Mississippi 
and served in the House for 10 years. He is a graduate of 
William Carey College, in Hattiesburg, Mississippi, with a B.A. 
degree in 1970, and in 1985 he was awarded an honorary 
doctorate in humanities from William Carey College. He has a 
lot of experience and background here.
    Mr. Brian Jenkins is one of the country's leading 
authorities on terrorism and sophisticated crime. He has been 
quoted in the media almost daily since September 11. He is a 
senior adviser to the president of the RAND Corporation, and 
serves as an adviser to both government and industry.
    A former deputy chairman of Kroll Associates, a prominent 
international investigative and consulting firm, Mr. Jenkins is 
also currently involved with the Mineta International Institute 
for Surface Transportation Policy Studies.
    Previously, from 1972 to 1989, he was chairman of the RAND 
political science department. In 2000, he oversaw a year-long 
RAND study of security vulnerabilities in the California rail, 
tunnel, waterway, highway and pipeline infrastructure carried 
out for the California Office of Emergency Services. This 
report was embargoed on September 11 by Governor Davis in light 
of the attacks.
    Mr. Jenkins served from 1996 to 1997 as a member of the 
White House Commission on Aviation Safety and Security, and he 
is the author of ``A Hundred Wars: International Terrorism, a 
New Mode of Conflict,'' and ``Terrorism and Personal 
Protection.''
    A former captain in the Green Berets, he served in the 
Dominican Republic during the American intervention, and later 
in Vietnam from 1966 to 1970. He is a widely respected and 
often-quoted analyst with over 25 years of experience. He comes 
highly recommended by a number of people who have testified 
before this committee and the Congressional Research Service 
Transportation Security Section.
    Also, we have Professor Donald E. Brown. He is Professor 
and Chair of the Department of Systems Engineering at the 
University of Virginia. He is a nationally regarded expert in 
qualifying security threats to surface transportation 
structures.
    As such, he served as a consultant for the National 
Security Administration on intelligence and threat analysis, 
and he has also recently served on the National Academy of 
Sciences panel which produced one of the definitive analytical 
studies on security vulnerabilities in the Nation's 
transportation system, entitled ``Improving Surface 
Transportation Security.''
    Dr. Brown has also produced several studies on the 
asymmetric threat posed to transportation infrastructure by 
terrorists; that is, the ability of a small cell of dedicated 
radicals to inflict significant blows against unprotected U.S. 
transportation targets, rather than against the overwhelming 
superiority of U.S. military forces.
    Prior to joining the University of Virginia, Dr. Brown 
served for 9 years as an officer in the United States Army, 
reaching the rank of captain, including more than 3 years as a 
military intelligence officer in Berlin in the late 1970s. He 
has also served as a visiting fellow at the National Institute 
of Justice's Crime Mapping Research Center, and has been a co-
principal investigator in over 50 research contracts with 
Federal, State and private organizations. He has published more 
than 80 papers.
    Dr. Brown is a graduate of the United States Military 
Academy at West Point, and received his master's in engineering 
and operations research from the University of California at 
Berkeley and a Ph.D. in operations engineering from the 
University of Michigan at Ann Arbor.
    Welcome, Doctor. Thank you for being here.
    Jeffrey Beatty looks too mild-mannered to fit this 
description. Jeffrey K. Beatty is a former U.S. Delta Force 
counterterrorism unit officer, a special agent for the FBI, and 
an operations officer for the CIA. He is currently president 
and CEO of Total Security Services International, in Marietta, 
Georgia.
    I might point out, to the best of my knowledge, no other 
individual has served in all three of the most elite 
counterterrorism units in the United States military. Mr. 
Beatty has appeared as a commentator on CNN on terrorism and 
transportation infrastructure since September 11, and maybe 
before, but I have noticed him since the 11th.
    From 1981 to 1983, Mr. Beatty served as a Delta Force 
assault troop commander, where he led a unit on several 
deployments and was commended for saving lives. Subsequently, 
he became operations officer for the entire Delta Force.
    From 1983 to 1985, Mr. Beatty served as a special adviser 
to the Federal Bureau of Investigation Hostage Rescue Team, 
with an emphasis on security for the 1984 Los Angeles Olympic. 
He also flew surveillance missions for the Bureau, including a 
mission involving the capturing of a Top 10 fugitive.
    From 1985 to 1992, he worked at the Central Intelligence 
Agency on Europe and the Middle East. In addition to 
traditional intelligence operations, he developed 
counterterrorism training programs for Allied troops. He also 
mounted several successful intelligence and security 
operations, including thwarting a terrorist attack.
    In 1992, Mr. Beatty founded Total Security Services 
International, a security consulting firm serving corporate and 
government clients. TSSI has managed large security projects, 
including the security upgrade program for Fairfax County, 
Virginia. The reason for that, I might add, was because of the 
trial of the gentlemen who shot two people at the CIA 
headquarters in 1993.
    Mr. Beatty specializes in the high-threat portion of the 
security spectrum and has experience in three Olympics--Los 
Angeles, Barcelona and Atlanta--not as a participant but as a 
consultant. It would be kind of nice to be a participant, too, 
wouldn't it?
    He has also done work on terrorism prevention with regard 
to the Big Dig highway excavation project in Boston. He also 
developed antiterrorism procedures and training materials for 
Amtrak and the Washington, D.C., Metro system. In addition, he 
has studied the vulnerabilities of Boston and New York City's 
tunnels, and has been a speaker at the Department of 
Transportation's Conference on Land Transportation issues. Mr. 
Beatty and TSSI have most recently been hired by the Boston 
MBTA to beef up subway security.
    TSSI warned officials at the 1996 Summer Olympics in 
Atlanta that their security procedures would leave crowds open 
to package bomb attacks, a prediction that soon came true. In 
1999, Mr. Beatty conducted an exercise in Boston preparing for 
armed terrorists seizing a subway train and a bomb detonating 
in the train station. In 1998, he went on record as stating 
that terrorists were aiming for an attack leading to 5,000 or 
more casualties by the end of 2001, a prediction unfortunately 
that has come true.
    Tony Chrestman currently serves as the president of Ruan 
Transportation Corporation, a business unit of Ruan 
Transportation Management Systems. Mr. Chrestman has more than 
30 years' experience in logistics and transportation services. 
Joining Ruan in 1999, he was vice president of transportation 
services with Ryder Integrated Logistics, and he is active in 
the American Trucking Association and the Council for Logistics 
Management. Mr. Chrestman attended Mississippi State 
University, and he is extremely welcome as well.
    Having said that, gentlemen, why don't we proceed with your 
public statements, if you will. If any of my colleagues want to 
ask a question on the record here in the public portion, we can 
do that and then we will go to the closed hearing.
    Mike, welcome.

   STATEMENT OF MIKE PARKER, ASSISTANT SECRETARY OF THE ARMY 
    (CIVIL WORKS), DEPARTMENT OF THE ARMY, WASHINGTON, D.C.

    Mr. Parker. Thank you, Mr. Chairman, members of the 
committee. For the last three weeks, I have had the privilege 
of serving as Assistant Secretary of the Army for Civil Works. 
I appreciate the opportunity to speak to you today, and also 
thank you for the opportunity to provide information on Army 
Corps of Engineers activities to address the infrastructure 
security issues resulting from the events of September 11, 
2001.
    First, allow me to say how proud I am to be associated with 
the Corps of Engineers, its record, and the manner in which it 
has begun to move out to protect the large part of America's 
infrastructure that is our responsibility. I want to assure you 
that the Corps will prove itself worthy of the trust which that 
responsibility conveys.
    Within two hours of the terrorist attacks on the World 
Trade Center, Corps employees were at Ground Zero lending 
assistance. Thousands of New York City residents were evacuated 
on Corps civil works vessels from Lower Manhattan in excess of 
2,000. We provide expert structural assessments, emergency 
power to get the stock market up and running, and provided 
technical assistance for the removal of what will likely exceed 
one million tons of debris.
    Within hours of the attack on the Pentagon, Corps 
structural engineers were on-site providing expert advice. We 
are presently conducting a comprehensive force protection 
analysis to make the rebuilt Pentagon safer from terrorist 
intervention in the future, and we continue to support local 
and military leaders with every asset the Corps can muster.
    In conjunction with its military construction mission, the 
Corps has developed in-depth antiterrorism force protection 
expertise. The Corps serves as the Department of Defense lead 
for public works under national and departmental plans. The 
Corps' laboratories and technology transfer centers were 
instrumental in the development of the DoD antiterrorism/force 
protection standards now used by all of the military services 
in military construction, major repair and other programs.
    These standards and the underlying technologies are being 
widely used by the State Department in their embassy program. 
For example, we have world-class antiterrorism force protection 
engineers at our Protective Design and Electronic Security 
Centers who are supported by the best available research assets 
within the Engineer Research and Development Centers six-
laboratory network.
    Expertise available there to the Corps and others includes, 
among other things, survivability and protective structures, 
sustainment engineering, battle space environment, military and 
civil infrastructure, and environmental quality. We have 
hundreds of employees trained by these engineers, along with 
experience born of work on the Khobar Towers, Murrah Federal 
Building, World Trade Center, the Pentagon and other sites, 
some well-known and others not so well-known. The Corps centers 
and labs are supported by the some of the leading 
antiterrorism/force protection engineering and construction 
firms through effective contracting vehicles.
    We are in the process of leveraging the expertise gained in 
the Corp's military mission areas to protect the Corps' 
critical water resources infrastructure from terrorist 
activities. Fortunately, we are not starting from scratch. Over 
the past few years, the Corps has been working diligently with 
other agencies, including the Bureau of Reclamation, the 
Department of Energy, the Tennessee Valley Authority, the 
Environmental Protection Agency and the Federal Bureau of 
Investigation to develop a comprehensive security assessment 
process to identify risks to critical facilities, such as 
locks, dams and hydropower facilities. As the security 
assessments are completed, we will apply the Corps' and others' 
antiterrorism/force protection expertise to critical sites to 
mitigate security risks uncovered.
    Today, temporary protection measures are in place, 
including restricted public access, increased stand-off 
distances to critical structures, increased patrol activities, 
additional contract guard support, increased coordination with 
local law enforcement, and establishment of early-warning 
telephone procedures.
    A civil works infrastructure management team has been 
established at headquarters and in the field, and the Corps has 
begun the task of assessing the need for more specific, 
effective protective measures. The centerpiece of this effort 
is the risk assessment and protection of dams methodology, 
called RAM-D, developed by the Interagency Forum on 
Infrastructure Protection from the efforts mentioned earlier. I 
have with me a copy of the training material and workbooks that 
teams will be using over the next several months to complete 
this comprehensive civil works security assessment.
    By using this Risk Assessment Methodology for Dams, 
security risks to dams and other Corps infrastructure can be 
assessed quickly in a structured, systematic manner, even 
though the structures to be assessed have been built at 
different times to meet a specific set of criteria and sited in 
unique environments.
    The Corps of Engineers has already put in place a plan to 
conduct these assessments on our critical dams and other 
infrastructure, and to cooperate with other agencies on still 
more dams. We will also cooperate on other types of structures 
as requested. The lack of standardizing tools may make for a 
slower process, but the assessment should be no less accurate.
    We are also actively involved with the Nation's leading 
engineering and construction industry associations, 
professional societies, and standards-writing organizations to 
improve the security and survivability of public and private 
buildings throughout the country.
    Your letter of invitation asked that I testify on the 
structural vulnerabilities of our Nation's surface 
transportation to terrorist attacks. I must tell you that 
America's water resources, including our waterborne 
transportation infrastructure, locks and dams, are at risk to 
terrorism.
    Risk is everywhere and impossible to eliminate entirely. 
However, there are many forms of risk and many ways to minimize 
and manage it. The Corps of Engineers has already begun the 
process of protecting the resources entrusted to it and the 
people who work and visit there. We have coordinated with the 
U.S. Coast Guard, the American Waterways Operators, and other 
members of the marine transportation industry to address the 
risk and challenges before us in ensuring the safe and 
efficient movement of hazardous cargoes on our inland rivers 
and waterways, while maintaining a high level of diligence and 
concern for the possibility of a terrorist act. I am proud of 
the Corps and confident in its ability to achieve and maintain 
the results demanded by the American people and their 
representatives in this august body.
    The President, Secretary of Defense Rumsfeld, Secretary of 
the Army White and I are committed to providing the leadership 
and resources for the Army Corps of Engineers to carrying out 
its vital military and civil works missions in these difficult 
times.
    Mr. Chairman, that concludes my statement and I will be 
pleased to address any questions.
    [The prepared statement of Mr. Parker follows:]

   Statement of Mike Parker, Assistant Secretary of the Army (Civil 
            Works), Department of the Army, Washington, D.C.

    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
                              INTRODUCTION
    I am Mike Parker, for the last three weeks, the Assistant Secretary 
of the Army for Civil Works. I appreciate the opportunity to speak to 
you today.
    Thank you for the opportunity to provide information on the Army 
Corps of Engineers activities to address the infrastructure security 
issues resulting from the events of September 11, 2001. First, allow me 
to say how proud I am to be associated with the Corps of Engineers, its 
record, and the manner in which it has begun to move out to protect the 
large part of America's water infrastructure that is our 
responsibility. I want to assure you that the Corps will prove itself 
worthy of the trust which that responsibility conveys.
    Within two hours of the terrorist attacks on the World Trade 
Center, Corps employees were at ground zero lending assistance. 
Thousands of New York City residents were evacuated on Corps civil 
works vessels from lower Manhattan. We provided expert structural 
assessments, emergency power to get the stock market up and running and 
providing technical assistance for the removal of what will likely 
exceed 1 million tons of debris. Within hours of the attack on the 
Pentagon, Corps structural engineers were on site providing expert 
advice. We are presently conducting a comprehensive force protection 
analysis to make the rebuilt Pentagon safer from terrorist intervention 
in the future. We continue to support local and military leaders with 
every asset the Corps can muster.
    In conjunction with its military construction mission, the Corps 
has developed indepth anti-terrorism/force protection (AT/FP) 
expertise. The Corps serves as the Department of Defense (DoD) lead for 
Public Works under national and departmental plans. The Corps 
laboratories and technology transfer centers were instrumental in the 
development of the DoD AT/FP standards now used by all the military 
services in the Military Construction, major repair and other programs. 
These standards and the underlying technologies are being widely used 
by the State Department in their embassy program.
    For example, we have world-class AT/FP applications engineers at 
our Protective Design and Electronic Security Centers who are supported 
by the best available research assets within the Engineer Research and 
Development Centers six laboratory network. Expertise available there 
(to the Corps and others) includes, among other things: Survivability 
and Protective Structures, Sustainment Engineering, Battlespace 
Environment, Military and Civil Infrastructure, and Environmental 
Quality. We have hundreds of employees trained by these engineers, 
along with experience born of work on the Khobar Towers, Murrah Federal 
Building, World Trade Center, the Pentagon, and other sites--some well-
known and others not-so-well-known. The Corps Centers and labs are 
supported by some of the leading AT/FP engineering and construction 
firms through effective contracting vehicles.
    We are in the process of leveraging the expertise gained in the 
Corps military mission areas to protect the Corps critical water 
resources infrastructure from terrorist activities. Fortunately, we are 
not starting from scratch. Over the past few years the Corps has been 
working diligently with other agencies, including Bureau of 
Reclamation, Department of Energy, Tennessee Valley Authority, 
Environmental Protection Agency, and the Federal Bureau of 
Investigation to develop a comprehensive security assessment process to 
identify risks to critical facilities such as locks, dams and 
hydropower facilities. As the security assessments are completed we 
will apply the Corps (and others) AT/FP expertise to critical sites to 
mitigate security risks uncovered.
    Today, temporary protection measures are in place, including 
restricted public access, increased standoff distances to critical 
structures, increased patrol activities, additional contract guard 
support, increased coordination with local law enforcement, and 
establishment of early warning telephone procedures.
    A civil works infrastructure management team has been established 
at headquarters and in the field, and the Corps has begun the task of 
assessing the need for more specific, effective protective measures. 
The centerpiece of this effort is the risk assessment and protection of 
dams methodology called RAM-D developed by the Interagency Forum on 
Infrastructure Protection from the efforts mentioned earlier. I have 
with me a copy of the training material and workbooks that teams will 
be using over the next several months to complete this comprehensive 
civil works security assessment.
    By using this Risk Assessment Methodology for Dams, security risks 
to dams and other Corps infrastructure can be assessed quickly, in a 
structured, systematic manner, even though the structures to be 
assessed have been built at different times to meet specific set of 
criteria and sited in unique environments. The Corps of Engineers has 
already put in place a plan to conduct these assessments on our 
critical dams and other infrastructure, and to cooperate with other 
agencies on still more dams. We will also cooperate on other types of 
structures, as requested. The lack of standardizing tools may make for 
a slower process, but the assessment should be no less accurate.
    We are also actively involved with the Nation's leading engineering 
and construction industry associations, professional societies and 
standards writing organizations to improve the security and 
survivability of public and private buildings throughout the country.
    You letter of invitation asked that I testify on the structural 
vulnerabilities of our Nation's surface transportation to terrorist 
attacks. I must tell you that America's water resources, including our 
waterborne transportation infrastructure (locks and dams), are at risk 
to terrorism. Risk is everywhere, and impossible to eliminate, 
entirely. However, there are many forms of risk, many ways to minimize 
and manage it. The Corps of Engineers has already begun the process of 
protecting the resources entrusted to it, and the people who work and 
visit there. We have coordinated with the U.S. Coast Guard, the 
American Waterways Operators, and other members of the marine 
transportation industry to address the risks and challenges before us 
in ensuring the safe and efficient movement of hazardous cargos on our 
inland rivers and waterways, while maintaining a high level of 
diligence and concern for the possibility of a terrorist act. I am 
proud of the Corps and confident of its ability to achieve and maintain 
the results demanded by the American people and their representatives 
in this august body.
                               CONCLUSION
    The President, Secretary of Defense Rumsfeld, Secretary of the Army 
White and I are committed to providing the leadership and resources for 
the Army Corps of Engineers to carrying out its vital military and 
civil works missions in these difficult times. Mr. Chairman that 
concludes my statement and I would be pleased to address any questions 
that you or the committee may have.

    Chairman Biden. Thank you very much, Congressman.
    Mr. Jenkins?

STATEMENT OF BRIAN M. JENKINS, SENIOR ADVISOR TO THE PRESIDENT, 
           RAND CORPORATION, SANTA MONICA, CALIFORNIA

    Mr. Jenkins. Mr. Chairman, members of the committee, thank 
you very much for giving me the opportunity to make a few 
remarks.
    Let me take a cue from your opening comments, Mr. Chairman. 
We must be realistic in our acceptance of risk. We know that 
terrorists can attack anything, anywhere, any time. We cannot 
protect everything, everywhere, all the time.
    Trying to imagine all the potential scenarios that exploit 
the infinite vulnerabilities in our society is not particularly 
helpful in allocating security resources. Terrorists are always 
going to find some vulnerability to exploit. Security to a 
certain extent is always going to be reactive.
    This obliges us to make choices based upon the likelihood 
that terrorists will attack a certain target and the 
consequences of that attack were to succeed. Fortunately, 
terrorists have shown some clear preferences, although the fact 
that they haven't done something in the past certainly is no 
guarantee that they will not do it in the future.
    We know, for example, that commercial aviation has been a 
preferred terrorist target for decades. Security at airports 
has been augmented since September 11, but in my view not 
enough. Aviation security still requires a complete overhaul.
    But for those determined to kill in quantity and willing to 
kill indiscriminately, which is a trend we have seen in 
terrorism over the last decade, public surface transportation 
is an ideal target. Precisely because it is public and used by 
millions of people daily, there is necessarily little security, 
with none of the obvious checkpoints like those at airports. 
Concentrations of people in contained environments are 
especially vulnerable to conventional explosives and, as we 
have seen in Tokyo, to unconventional weapons as well.
    The threat here is real. We are not talking about 
hypothetical scenarios. We have seen terrorist attacks in the 
subways of Paris and London's Underground, Tokyo's subways, 
Moscow's Metro and Tel Aviv's buses. In the United States, we 
have seen the deliberate derailment of an Amtrak passenger 
train. We have seen a thwarted plot to carry out suicide 
bombings on New York subways.
    Terrorists see public transportation as a killing field. 
Now, it may not be so dramatic in the shadow of more than 5,000 
deaths on September 11, but the statistics nonetheless are 
impressive. Thirty-seven percent of all terrorist attacks on 
surface transportation have involved fatalities. That is 
significant when we realize that the average for terrorist 
attacks in general is about 20 percent. So when they go after 
public transportation, twice as many of these attacks result in 
fatalities.
    Indeed, two-thirds of the attacks have clearly been 
intended to kill, versus 37 percent for terrorist attacks 
overall. So they are twice as likely to be trying to kill 
people. Twenty-three percent of the attacks with fatalities 
involve 10 or more deaths. Attacks on public transportation, of 
course, also cause great disruption and alarm, which are the 
traditional goals of terrorism.
    Security on surface transportation fortunately can be 
significantly improved without disrupting operations or even 
spending vast sums of money. Potential casualties can be 
reduced both through the design of stations and vehicles and 
through effective and rapid response.
    Disruptions resulting from unnecessary shutdowns can be 
minimized with technology and procedures that permit prompt 
assessment, accurate diagnosis, and rapid, well-rehearsed 
responses. Crisis management is a critical component of this 
security.
    We can apply the best practices learned from those systems 
that have dealt with higher levels of threat. Fortunately, in 
this country thus far we have seen only a small number of 
incidents. But other countries--France, the United Kingdom, 
Japan--have dealt with terrorist campaigns on their public 
transportation systems and we can learn from their lessons. 
This has been the focus of ongoing research by the Mineta 
Transportation Institute, and I have provided members of the 
committee with advance copies of an executive overview of this 
ongoing research.
    One final thought. Much of our country's critical 
infrastructure--dams, water systems, ports, transportation 
systems--is protected by private security guards, and I think 
we often overlook the role played by private security in this 
country. We spend over $100 billion a year on private security 
in this country. The industry currently employs more than 2 
million persons. That is close to the strength of the United 
States armed forces at the height of the Cold War.
    We can, of course, on a temporary basis, augment security 
at critical facilities with police and National Guard, but that 
is not a permanent solution. I think we should explore ways in 
which we can better ensure high-level performance among private 
sector guards, not just in airports, and ways in which we can 
more effectively utilize this second line of defense in crisis 
situations. This could be achieved through the certification of 
those companies involved in protecting designated components of 
the Nation's critical infrastructure and improved professional 
training.
    Thank you very much.
    [The prepared statement of Mr. Jenkins follows:]

  Statement of Brian Michel Jenkins, Senior Advisor to the President, 
               RAND Corporation, Santa Monica, California

    Terrorists can attack anything, anywhere, any time, while we cannot 
protect everything, everywhere, all the time. Trying to imagine all of 
the potential terrorist scenarios that exploit the infinite 
vulnerabilities in our society is not particularly helpful in 
allocating security resources. We can easily overwhelm security 
planners with plausible threats. Terrorists will always find 
vulnerabilities to exploit. To a certain extent, security will always 
be reactive.
    This obliges us to make choices based upon the likelihood that 
terrorists will attack a certain target, and the consequences of that 
attack were it to succeed. Our ability to protect certain categories of 
targets is also a factor. Terrorists seeking to cause heavy casualties, 
can always set off bombs in public places that are by their very nature 
difficult to protect. We must be realistic in our acceptance of risk.
    Fortunately, terrorists have shown clear preferences. However, the 
fact that terrorists have not done something in the past is no 
guarantee that they might not try it in the future. Our security goal 
lies somewhere between ensuring adequate protection at facilities that 
have been attacked by terrorists in the past and attempting to 
eliminate every conceivable vulnerability to future attack.
    The September 11 attack humbles any analyst attempting to forecast 
what terrorists might do in the future. While a growing percentage of 
attacks are clearly intended to kill (as opposed to purely symbolic 
violence, sabotage, or hostage-taking), of more than 10,000 
international terrorist incidents in the past three decades, prior to 
September 11 only 14 resulted in 100 or more fatalities. The September 
11 attack was unprecedented in the annals of terrorism, (although I 
strongly suspect that the terrorists had hoped for a far greater number 
of casualties). The attack did conform to the view offered years ago 
that tomorrow's terrorist might not be the high-tech adversary 
envisioned by many, but rather a more bloody-minded version of previous 
low-tech terrorists.
    Commercial aviation has been a preferred terrorist target for 
decades. Security at airports has been augmented since September 11 but 
not enough. In my view, aviation security requires a complete overhaul.
    But our focus today is surface transportation. For those determined 
to kill in quantity and willing to kill indiscriminately, public 
surface transportation is an ideal target. Precisely because it is 
public and used by millions of people daily, there is little security, 
with no obvious checkpoints like those at airports. Concentrations of 
people in contained environments are especially vulnerable to 
conventional explosives and unconventional weapons.
    The threat is real. We have seen terrorist bombing campaigns 
against the subways of Paris, London's Underground and railways, 
Tokyo's subway, Moscow's Metro, and Tel Aviv's buses. In the United 
States, we have seen the deliberate derailment of a passenger train, 
chemical attack scares on metro-rail systems, and a thwarted plot to 
carry out suicide bombings on New York's subways.
    Terrorists see public transportation as a killing field: 37 percent 
of attacks on surface transportation have involved fatalities compared 
to 20 percent for all terrorist incidents, and two-thirds of the 
attacks clearly have been intended to kill (versus 37 percent for 
terrorist attacks overall); 23 percent of the attacks on surface 
transportation with fatalities involve 10 or more deaths. Attacks on 
public transportation, the circulatory systems of our cities, also 
cause great disruption and alarm, which are the traditional goals of 
terrorism.
    Security of surface transportation can be significantly improved 
without disrupting operations or spending vast sums of money. Potential 
casualties can be reduced both through the design of stations and 
vehicles and through effective and rapid response.
    Disruptions resulting from unnecessary shutdowns can be minimized 
with technologies and procedures that permit prompt assessment, 
accurate diagnosis, and rapid, well-rehearsed responses. Crisis 
management is a critical component of security.
    We can apply the ``best practices'' learned from those systems that 
have dealt with higher levels of threat. This has been the focus of on-
going research by the Mineta Transportation Institute. (I have provided 
committee members with advanced copies of the executive overview of 
this project, which catalogues many of the security measures.)
    Terrorists have carried out fewer attacks in the maritime 
environment, although they have sabotaged ships and port facilities, 
especially oil and gas facilities, and the bombing of the U.S.S. Cole, 
indicates that this area of operations is not outside the terrorists' 
field of vision.
    Other components of the critical physical infrastructure including 
power generation and distribution, oil and natural gas facilities, and 
water systems must also be considered as potential targets. The 
transport of hazardous materials is another area of concern. Power 
grids and pipelines have been the targets of sabotage in guerrilla 
wars. In the realm of terrorism, however, fewer than two percent of all 
terrorist attacks can be categorized as traditional sabotage as opposed 
to purely symbolic attacks and attacks intended to kill, which together 
account for 82 percent.
    One final thought: Much of the country's critical infrastructure is 
protected by private security guards. This industry currently employs 
more than 2 million persons, close to the strength of the United States 
armed forces at the height of the Cold War. We can, on a temporary 
basis, augment security at critical facilities with police and the 
National Guard. It is not, however, a permanent solution. We should 
explore ways in which we can better ensure high level performance among 
private sector guards, and in crisis situations effectively utilize 
this second line of defense. This could be achieved through the 
certification of those companies involved in protecting designated 
components of the nation's critical infrastructure and improved 
professional training.

    Chairman Biden. Thank you very much.
    Professor Brown?

 STATEMENT OF DONALD E. BROWN, PROFESSOR AND CHAIR, DEPARTMENT 
        OF SYSTEMS ENGINEERING, UNIVERSITY OF VIRGINIA, 
                   CHARLOTTESVILLE, VIRGINIA

    Mr. Brown. Thank you. Good morning, Chairman Biden, Senator 
Grassley and Senator Schumer. Thank you very much for offering 
me the opportunity to discuss the issues surrounding surface 
transportation security.
    As each of you have already noted, surface transportation 
is critical to our Nation's economy, defense, and quality of 
life. Few Americans spend even one day without enjoying the 
benefits of our open and easily accessed surface transportation 
system. However, there can be little question that currently 
the surface transportation infrastructure is threatened by the 
potential of terrorist attack, but we can take steps to address 
these threats.
    That our surface transportation infrastructure is 
threatened can be seen by a simple three-step analysis: what 
are the threats, what are the vulnerabilities, and what are the 
impacts?
    First, what are the threats? The events of September 11 
clearly showed that global terrorist groups provide significant 
threats to facilities in the United States. Their willingness 
to use civilians, including even 4-year-old children and their 
mothers, as human bombs provides chilling evidence of both 
their lack of morality and the seriousness of their intention 
as they pursue their objectives. However, we should not lose 
sight of the fact that many of the terrorist groups, including 
those spawned within this country, have also targeted the U.S. 
infrastructure.
    Second, what are the vulnerabilities? While I will not 
discuss specific vulnerabilities in this forum, we need only 
look at the record of accidents, natural disasters and past 
terrorist incidents both here and abroad to recognize that 
vulnerabilities exist within the surface transportation 
infrastructure. Further, if you talk with the people traveling 
and working in this infrastructure, you gain a sense of the 
perceived vulnerabilities. We need to recognize and address 
these vulnerabilities to ensure the continued growth and the 
use of surface transportation.
    Finally, what are the potential impacts of attacks on the 
surface transportation infrastructure? Again, specifics are 
best discussed in a closed forum, but an objective assessment 
shows that the inherent decentralized, redundant and 
distributed nature of much of the surface transportation 
infrastructure makes it robust to many forms of attack. 
Nonetheless, without going into details at this time, attacks 
on this infrastructure can cause both significant loss of life 
and severe economic consequences.
    Given threats, vulnerabilities and impacts, what steps can 
we take to improve security on surface transportation? The 
answer to this question lies in our past record of success in 
the face of other threats.
    We have made great progress in reducing the threats from 
disease, environmental hazards, natural disasters and 
accidents. Clearly, there is more work that needs to be done in 
each of these areas, but it is difficult to argue that we are 
not measurably better off today than we were 50 years ago. 
These successes derive from government actions that provide 
safer environments in each area.
    Additionally, many of these successes derive from one of 
America's greatest strengths: its research and development 
community. Forged in World II and institutionalized in the 
post-war years, this alliance of industry, government and 
universities provides the capability for addressing national 
needs that are second to none. As we face this newest threat to 
our transportation infrastructure, this community can be 
mobilized to help address the needs for greater security in the 
face of multiple threats.
    Thank you very much.
    [The prepared statement of Mr. Brown follows:]

      Donald E. Brown, Professor and Chair, Department of Systems 
     Engineering, University of Virginia, Charlottesville, Virginia

    Good morning Chairman Biden and Senator Grassley and thank you for 
offering me the opportunity to discuss the issues surrounding surface 
transportation security. Surface transportation is critical to our 
Nation's economy, defense, and quality of life. Few Americans spend 
even one day without enjoying the benefits of our open and easily 
accessed surface transportation systems. However, there can be little 
question that currently the surface transportation infrastructure is 
threatened by the potential of terrorist attacks, but we can take steps 
to address the threats.
    That our surface transportation infrastructure is threatened can be 
seen by a simple three-step analysis: what are the threats, what are 
the vulnerabilities, and what are the impacts? First, what are the 
threats? Events of September 11 clearly showed that global terrorist 
groups provide significant threats to facilities in the U.S. Their 
willingness to use civilians, including four year old children and 
their mothers, as human bombs provides chilling evidence of both their 
lack of morality and the seriousness of their intention as their pursue 
their objectives. However, we should not lose sight of the fact that 
many other terrorist groups, including those spawned within this 
country have also targeted the U.S. infrastructure.
    Second, what are the vulnerabilities? While I will not discuss 
specific vulnerabilities in this forum, we need only look at the record 
of accidents, natural disasters, and past terrorist incidents, both 
here and abroad, to recognize that vulnerabilities exist within the 
surface transportation infrastructure. Further, if you talk with people 
traveling and working in this infrastructure you gain a sense of the 
perceived vulnerabilities. We need to recognize and address these 
vulnerabilities to ensure the continued growth and use of surface 
transportation.
    Finally, what are the potential impacts of attacks on surface 
transportation? Again the specifics are best discussed in closed forum. 
On the positive side, an objective assessment shows that the inherent 
decentralized, redundant, and distributed nature of much of the surface 
transportation infrastructure makes it robust to many forms of attack. 
Nonetheless, without going into details at this time, attacks on this 
infrastructure can cause both significant loss of life and severe 
economic consequences.
    Given these threats, vulnerabilities, and impacts what steps can we 
take to improve security in surface transportation? The answer to this 
question lies in our past record of success in the face of other 
threats. We have made great progress in reducing the threats from 
disease, environmental hazards, natural disasters, and accidents. 
Clearly there is more work needed in each of these areas, but it is 
difficult to argue that we not measurably better off today than we were 
50 years ago. These successes derive from government actions that 
provide safer environments in each area. Additionally, many of these 
successes derive from one of America's greatest strengths: its research 
and development community. Forged in World War II and institutionalized 
in the post war years this alliance of industry, universities, and 
government provides the capabilities for addressing national needs that 
are second to none. As we face this newest threat to our transportation 
infrastructure, this community. Forged in World War II and 
institutionalized in the post war years this alliance of industry, 
universities, and government provides the capabilities for addressing 
national needs that are second to none. As we face this newest threat 
to our transportation infrastructure, this community can be mobilized 
to help address the needs for greater security in the face of multiple 
threats.

    Chairman Biden. Thank you.
    Mr. Beatty?

 STATEMENT OF JEFFREY K. BEATTY, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, TOTAL SECURITY SERVICES INTERNATIONAL, MARIETTA, 
                            GEORGIA

    Mr. Beatty. Mr. Chairman, Senators and distinguished guests 
of the Senate, my name is Jeff Beatty, President of Total 
Security Services International, a company that specializes in 
advising transportation systems on preventing terrorism. Thank 
you for the opportunity to be with you today and to share some 
observations and suggestions that might help improve our 
Nation's security in the transportation sector, specifically in 
surface and rail transportation. In this open session, I intend 
to make some very brief general comments, and I will save the 
details of specific vulnerabilities and remedies for the closed 
session.
    It is the threat that dictates the level of security 
necessary for the transportation sector. We must build our 
security based on the threat's capability, not on some 
interpretation of intention. Intentions can change overnight 
and we can't change our defenses that fast.
    The current threat consists of 1 to 50 persons who either 
directly or indirectly can launch a pre-planned attack or 
attacks that are capable of causing mass casualties, 
destruction of property and severe economic impact, using 
everything from mechanical weapons to firearms to weapons of 
mass destruction.
    The terrorists have, in fact, at their disposal over 50 
different types of weapons and special techniques. These 
attacks may be pressed home by persons planning to die in the 
attack. The attacks may have multiple stages, use multiple 
weapons, and may take place at multiple locations.
    Based on that threat, I believe that there is an immediate 
need to conduct an incremental threat exposure and response 
analysis for all places where people transit and travel 
nationwide. This is being undertaken and done by some 
organizations now, but this analysis is not an end in itself. 
It must be functional and fast.
    This analysis would look beyond the threat of the day, to 
cover over 50 different types of weapons and special 
techniques. The Federal Government can provide the guidance and 
some of the tools to do this task to the tens of thousands of 
State and local law enforcement professionals who have a 
contribution to make in the transportation sector. When the 
locals do the work, you will be improving their capabilities in 
the war against terrorism. They are a hugely untapped resource 
in this war and we need to get them more involved.
    In the meanwhile, I urge you to continue to deploy more 
security than may seem necessary in the transportation sector, 
especially on tunnels, and then adjust as results of the threat 
exposure and response analysis becomes available.
    In the closed session, I will discuss a form of security 
that is not purely defensive and reactive, but rather is an 
active defense. There are training and equipment requirements 
that are near-term and need to be prioritized as a result of 
September 11. Much good work was underway already. It will need 
your support and will need to become accelerated. There are 
other technologies that frankly have not yet been considered in 
this sector and they can save a significant number of lives in 
the event of an incident. I hope you will support their early 
adoption, also.
    Public trust is key to the public continuing to use the 
transportation system. To this end, we must keep the public 
informed. Right now, threat information is shared with the 
transit companies and airlines, but not with passengers. The 
position that government knows best really does not apply. We 
learned that on September 11.
    We must consider requiring transportation providers to post 
on a Web page or at some other location the same threat 
information the Government gives those providers, providers 
such as the MTA in New York, WMATA in D.C., the CTA in Chicago, 
the MBTA in Boston, and Delta Airlines in Atlanta. Let the 
citizens use the transportation system under the concept of 
informed consent. There may be some initial reduction in 
travel, but soon travelers will realize for themselves the 
credibility of the threat information posted in this manner and 
put it into proper perspective. They will make informed choices 
about traveling and the Government will have demonstrated its 
openness and fulfilled its responsibility to the citizens.
    In conclusion, I must tell you that I am impressed and 
encouraged by the work our Government is now doing against 
terrorism. Now is the time to be bold and decisive. There is no 
doubt in my mind that we will prevail in this struggle, but 
what does prevail mean?
    This war on terrorism is not like World War II or Desert 
Storm where victory means peace. It is more like the war on 
crime. You can make great progress in the war on crime, but 
after your progress some lower level of crime will still exist. 
So it is with the war on terrorism. We will make great 
progress, but we must put in place the tools to ensure that 
terror in the future, even in its most virulent form, is only 
an occasional occurrence, with minimum casualties and minimum 
disruption to our way of life.
    The work of this committee on protecting our transportation 
sector will go a long way to achieve that success for the 
American people. I wish you good luck in your mission, and 
thank you for the opportunity to address you.
    [The prepared statement of Mr. Beatty follows:]

Statement of Jeffrey K. Beatty, President and Chief Executive Officer, 
        Total Security Services International, Marietta, Georgia

    Mr. Chairman, Senators, and distinguished guests of the Senate. My 
name is Jeff Beatty and I am President of Total Security Services 
International, a company that specializes in advising transportation 
systems on preventing terrorism. Thank you for the opportunity to be 
with you today to share some observations and suggestions that might 
help improve our nation's security in the transportation sector and 
specifically in surface and rail transportation. In this open session, 
I intend to make some general comments, and I will save the details of 
specific vulnerabilities and remedies I have identified for the closed 
session.
    The threat dictates the level of security necessary for the 
transportation sector. We must build our security based on the threat's 
capability, not on some interpretation of intention. Intentions can 
change overnight, we can't change our defenses that fast.
    My company, TSSI, utilizes specialized analysis to evaluate 
terrorist threats to public events and transportation systems. Using 
that analysis, TSSI was able to predict a major attack on the United 
States by the end of 2001 in which the terrorist goal was to create at 
least 5,000 casualties. We also predicted the breach of security at the 
Atlanta Olympics. TSSI predicted that Atlanta would suffer a successful 
package bomb attack after the 5`'' day and estimated that there would 
be 120 casualties. In actuality, there were 112 casualties. TSSI's 
assessment of the current threat is detailed but can be summarized as 
follows:
    The current threat consists of 1-50 persons who either directly or 
indirectly can launch a preplanned attack or attacks that are capable 
of causing mass casualties, great destruction of property and severe 
economic impact using everything from mechanical weapons to firearms to 
weapons of mass destruction. The terrorists have at their disposal over 
50 different types of weapons and special techniques. These attacks may 
be pressed home by persons planning to die in the attack. They attacks 
may have multiple stages, use multiple weapons and may take place at 
multiple locations.
    Based on that threat, I believe there is an immediate need to 
conduct Incremental Threat, Exposure and Response Analysis for all 
places where people transit and travel nationwide. This is being done 
by some organizations now. This analysis would look beyond the ``Threat 
of the Day'' to over 50 different types of weapons and special 
techniques. The Federal Government can provide the guidance and some of 
the tools to do this task, to the tens of thousands of the State and 
Local Law Enforcement professionals who have a contribution to make in 
the transportation sector. When the locals do this work, you will be 
improving their capabilities in the war against terrorism. They are a 
hugely untapped resource in this war; we need to get them more 
involved. In the meanwhile, I urge you to continue to deploy more 
security than seems needed in the transportation sector, especially on 
tunnels, and adjust as results of the Threat Exposure and Response 
analysis become available.
    There are training and equipment requirements that are near term 
and need to be prioritized, as a result of September 11. Much good work 
was underway already. It will need your support and become accelerated. 
There are other technologies that frankly have not yet been considered 
in this sector that can save significant numbers of lives in the event 
of an incident. I hope you will support their early adoption.
    Public trust is key to the public continuing to use the 
transportation system. To this end we must keep the public informed. 
Right now, threat information is shared with the transit companies and 
airlines, and not with passengers. The position that ``government knows 
best'' does not apply. We learned that on September 11. We must 
consider requiring transportation providers to post on a web page the 
same threat information the government gives those providers such as 
the MTA in NY, WMATA in D.C., the CTA in Chicago, the MBTA in Boston 
and Delta Airlines in Atlanta. Let the citizens use the transportation 
system under the concept of informed consent. There may be some initial 
reduction in travel, but soon travelers will realize for themselves the 
credibility of threat information posted in this manner. They will make 
informed choices about traveling and the government will have 
demonstrated its openness and fulfilled its responsibility to the 
citizens.
    In conclusion, I must tell you I am impressed and encouraged by the 
work our government is now doing against terrorism. There is no doubt 
in my mind that we will prevail in this struggle. But what does prevail 
mean? This war on terrorism is not like World War II or Desert Storm, 
where victory meant peace. It is more like the war on crime. You can 
make great progress in the war on crime, but after your progress, some 
lower level of crime will still exist. So it is with the war on 
terrorism. We will make great progress. But we must put in place the 
tools to ensure that terror in the future, even in its most virulent 
form, is only an occasional occurrence, with minimum casualties and 
minimum disruption to our way of life. The work of this Committee on 
protecting our transportation sector will go a long way to achieve that 
success for the American people. I wish you good luck in your mission 
and thank you for the opportunity to address you.
    I will save the details of specific transportation vulnerabilities 
and suggested remedies for the closed session. Thank you.

    The Chairman. Thank you, Mr. Beatty.
    Mr. Chrestman?

  STATEMENT OF TONY CHRESTMAN, PRESIDENT, RUAN TRANSPORT, DES 
                          MOINES, IOWA

    Mr. Chrestman. Thank you, Mr. Chairman, Senator Grassley, 
members of the subcommittee. Thank you for the opportunity to 
present Ruan's perspective on transportation infrastructure 
security.
    As a highly diversified transportation company, Ruan is in 
a unique position to address the many security issues currently 
facing the trucking industry. We are a Des Moines, Iowa-based 
company with operations throughout the infrastructure. Ruan 
provides for-hire trucking services for a full range of 
commodities, including hazardous materials. Our operations also 
include dedicated truck fleets, logistic services, truck 
leasing, contract maintenance services, and truck and trailer 
rentals.
    I want to add that Ruan worked closely with the American 
Trucking Association in preparation for this hearing to make 
certain that we are able to present the subcommittee with the 
broadest possible picture of the many challenges the trucking 
industry has had to deal with in the wake of the tragedies that 
occurred on September 11.
    Mr. Chairman, the trucking industry has been working to 
combat cargo theft and address other security concerns for many 
decades. As a result of the work that we have done in 
cooperation with various Federal, State and local government 
agencies, the industry has made great strides toward ensuring 
that the cargo and the equipment we are responsible for does 
not fall into the wrong hands.
    However, recent events have caused many carriers, including 
Ruan, to reevaluate the adequacy of our safety measures. We 
have certainly made positive changes over the past few weeks, 
and believe we are using all of the tools at our disposal. 
However, there are several measures that Congress can adopt 
which would help Ruan and other trucking companies to both 
curtail security threats within the trucking industry and help 
mitigate the impacts of a transportation system disruption 
resulting from a terrorist act.
    Specifically, Congress should take steps to mitigate the 
impacts of a terrorist attack on the highway system: one, 
facilitate trucking companies' ability to run criminal 
background checks on employees; two, give the enforcement 
community more and better tools to combat cargo theft; three, 
direct additional resources toward land border infrastructure 
to facilitate more efficient trade flows; and, last, improve 
oversight of the commercial driver's license program.
    I will go into more detail now. As we have witnessed, a 
disruption to one part of the transportation system can have 
ripple effects that impact the entire system from coast to 
coast. We also discovered that a severe disruption to the 
transportation system will generate negative impacts throughout 
the economy.
    The best way to deal with these disruptions is to build 
some redundancy into the transportation system. This means 
ensuring that if one bridge or one tunnel goes down, there is 
enough redundancy in the highway network to ensure the 
continued flow of commerce. This also means prioritizing 
Federal investments to make certain that the highways that are 
not critical to our military and our economy are adequately 
funded.
    Of course, it is better to avoid these problems in the 
first place. Motor carriers have various tools at our disposal 
to ensure that trucks and their cargo do not fall into the 
wrong hands and are not used in a terrorist act. We are ready 
and willing to do more, but we need Congress' help to get 
there.
    Ruan supports recent proposals by the American Trucking 
Association to authorize motor carrier access to national crime 
information databases, thus allowing motor carriers to conduct 
nationwide criminal background checks on current or prospective 
employees.
    Congress has authorized such access to other industries 
with employees who have a demonstrated impact on public 
security or are in a position of public trust--banking, credit 
unions, child care providers, nuclear facility operators, home 
health care agencies, and airport operators.
    While the trucking industry has dealt with cargo theft for 
many decades, hijacked trucks and trailers are no longer simple 
economic losses. They now present a national security threat. 
Even before September 11, ATA proposed cargo theft legislation 
that would increase the penalties and fines for cargo theft, 
and require uniform reporting on cargo theft and provide 
increased funding to local, State and Federal multi-
jurisdictional task forces that have proven effective in 
combatting cargo theft.
    Mr. Chairman, it will come as no surprise that the most 
vulnerable part of the highway system during times of a 
national security crisis is at our border crossings with Canada 
and Mexico. After the terrorist attacks, the Nation's land 
borders were put on a Level I alert, resulting in extreme 
border crossing delays and hampering the delivery of parts and 
equipment.
    The Level I alert at our borders continues today. As 
globalization of manufacturing continues to expand, the need 
for consistently efficient border operations will grow. While 
we recognize and support strong security measures, we also 
believe that greater investments in technology and physical and 
human infrastructure at the borders will help to alleviate 
future problems.
    As you know, Mr. Chairman, there has been great concern 
over the fact that suspected terrorists were able to obtain 
commercial drivers' licenses with HAZMAT endorsements. This 
should be a wake-up call to all of us. While we believe the CDL 
program is very effective, it clearly has shown deficiencies 
particularly with regard to CDL testers and examiners. More 
Federal personnel should be dedicated to program evaluation and 
oversight, and Congress should consider directing additional 
resources to States to improve their own oversight processes.
    Finally, we urge Congress to reject any legislation that 
would curtail the use of Social Security numbers as personal 
identifiers on national drivers' licenses. While there are 
legitimate concerns with Social Security numbers related to 
identity theft, the inability of carriers and States to track 
drivers due to the loss of Social Security numbers as a 
personal identifier would compromise both security and highway 
safety.
    This concludes my statement, Mr. Chairman. I have provided 
much more detail on these recommendations in my written 
statement. I thank you once more for the opportunity and I am 
pleased to answer any questions.
    [The prepared statement of Mr. Chrestman follows:]

  Statement of Tony Chrestman, President, Ruan Transport, Des Moines, 
                                  Iowa

                            I. Introduction

    Good morning Mr. Chairman and members of this Subcommittee. My name 
is Tony Chrestman, and I am the President of Ruan Transport, the 
trucking arm of Ruan Transportation Management Systems (hereafter 
referred to as Ruan) based in Des Moines, Iowa. I sincerely appreciate 
the opportunity to provide testimony today to this Subcommittee, which 
I have prepared in conjunction with the trucking industry's leading 
trade group, the American Trucking Associations, Inc. (ATA).
    Ruan is a full service ground transportation company that operates 
more than 200 service centers throughout the United States. The range 
of trucking-related services Ruan provides include: common for-hire 
trucking of all types of commodities including bulk transportation of 
hazardous materials (hazmat); dedicated truck fleets for specific 
customers; logistics services including complete supply-chain 
management; full-service truck equipment leasing; contract truck 
maintenance services; and truck and trailer rentals.
    Mr. Chairman, in the wake of the September 11 attacks, Ruan and the 
entire U.S. trucking industry have worked diligently to support 
President Bush's goals of keeping our country and our economy moving 
forward. I am very proud of the effort of Ruan's employees throughout 
the country, and the entire trucking industry's efforts, to keep 
America moving. In doing so, we at Ruan, along with most companies in 
the industry, have tightened operating security measures. Below, I will 
provide some examples of these increased measures.
    Trucking is a critical component of the United States' economic 
strength, with 9 billion tons of freight transported by inter-city and 
local trucks, representing 68% of the total domestic tonnage shipped. 
The trucking industry generates revenues of $606 billion annually, 
equaling almost 5% of our Gross Domestic Product, and a figure that 
represents nearly 87% of all revenues generated by our nation's freight 
transportation industry. Our nation's transportation infrastructure, in 
particular the highway system, provides the opportunity for the 
trucking industry to play such a large and important role in the U.S. 
economy. Preservation of and improvement to the existing infrastructure 
will help to ensure a strong and vibrant economy both now and in the 
future.
    As in all businesses and all sectors of our country's economy, the 
horrific attacks have heightened security concerns in the trucking 
industry, and even more so after it was recently reported by the FBI 
that some suspected terrorists had obtained commercial driver's 
licenses (CDLs) to operate large trucks. It appears that motor carriers 
involved in transporting hazardous materials (hazmat) may have been, or 
may be, targeted for hijackings or theft for use in potential acts of 
terrorism. In fact, just late last week the FBI issued a warning that 
it is very possible that a new terrorist attack on U.S. soil very 
likely could involve truck bombs. Obviously, this is a major concern to 
Ruan and the entire trucking industry. I commend you for holding this 
hearing today to identify ways to address these very real threats which 
may be aimed at our transportation infrastructure.
    In this testimony, I will communicate the trucking industry's 
longstanding involvement in transportation security issues, and provide 
examples of increased security measures the industry has taken since 
September 11. I will also provide some background information on the 
transportation of hazmat, since much of the trucking-related concern 
stems from the fact that suspected terrorists recently obtained 
commercial driver's licenses (CDLs) to transport hazmat by truck. I 
will also recommend several potential legislative actions that that 
would improve our infrastructure, and that would assist Ruan, and 
hundreds of thousands of other trucking companies, enhance driver, 
vehicle and cargo security in the industry.

II. The Trucking Industry's Involvement in Transportation Security and 
                             Related Issues

                                SECURITY

    Ruan and its fellow ATA members have long been actively involved in 
providing safe and secure transportation of goods on behalf of 
customers and their consumers. Since 1982, ATA has maintained a Council 
of members, like Ruan, dedicated to advancing security and loss 
prevention issues. The name of this organization has undergone numerous 
changes since its inception, and today is known as the Safety & Loss 
Prevention Management Council (Safety Council). The Safety Council has 
numerous committees, but two in particular focus on security issues--
the Security Committee and the Claims and Loss Prevention Committee. 
These Committees have addressed many trucking security issues, 
including driver and vehicle security, cargo security, and facility 
security. The Committees consist of security directors, many of whom 
are former law enforcement personnel, from a broad array of America's 
leading motor carriers. The Committees publish guidelines and 
educational materials to assist motor carriers enhance the security of 
their operations.
             increased security measures since september 11
    Ruan and other trucking companies throughout the trucking industry 
took a number of measures to increase the security of operations 
immediately following the attacks. Some carriers have re-evaluated 
their overall security procedures for pick-up and delivery, for their 
service locations, terminals and loading-dock facilities, for dispatch 
operations to vehicles in cities and on the road. In addition to 
requesting personnel to be extremely alert and to report any suspicious 
activity to law enforcement personnel, other examples of actions taken 
include:

        <bullet> Initiating new background checks through systems 
        available to motor carriers;
        <bullet> Designating specific drivers for specific types of 
        loads (particularly hazmat loads) and studying the specific 
        routes to be used;
        <bullet> Instructing drivers not to stop or render assistance 
        except in the case of a clear emergency, and alerting drivers 
        of possible ploys to obtain vehicles for hijacking purposes;
        <bullet> Emphasizing to all trucking company employees, not 
        only drivers, to stay alert and remain aware of their 
        surroundings at all times, especially when transporting hazmat;
        <bullet> Advising drivers transporting hazmat to, whenever 
        possible, avoid highly populated areas, and use alternate 
        routes if feasible to avoid such areas.
        <bullet> Verifying seal integrity at each and every stop. 
        Notifying central dispatch immediately if the seal is 
        compromised.
        <bullet> Advising drivers to notify supervisors/managers of any 
        suspicious shipments, and if deemed necessary, to contact local 
        police or law enforcement authorities to request inspection of 
        shipment under safe practices.

    These are just a few of the measures that Ruan and many other 
trucking companies around the country took to enhance their operational 
security. Now, I will turn to some additional information concerning 
the transportation of hazmat, since much of the security concern 
involving the trucking industry stems for suspected terrorists 
obtaining licenses to operate hazmat trucks.

                III. Hazardous Materials Transportation

    Transportation of hazmat is highly regulated by the U.S. Department 
of Transportation (DOT). In addition to the requirements in the 
Hazardous Materials Regulations (HMRs), the Federal Motor Carrier 
Safety Regulations (FMCSRs) contain certain rules for transportation of 
hazardous materials. For instance, drivers of trucks requiring hazmat 
warning placards need a CDL with a hazmat endorsement. If, the hazmat 
is transported in a tank truck, then the driver also needs a tank 
endorsement on the CDL to show proficiency in its operation. To obtain 
these endorsements, drivers must pass additional exams administered by 
the state licensing agency. The HMRs also require ``hazmat employees,'' 
including drivers, to receive periodic training in hazmat awareness and 
safety and in any specific function that the employee performs. Also, 
the FMCSRs specifically deal with driving and parking of trucks that 
contain certain hazmat, and highway routing requirements for both 
Highway Route Controlled Quantities (HRCQ of Radioactive Materials 
(RAM) and non-HRCQ RAM.
    Hazardous materials are an integral part of American life and are 
used in the manufacture of everything from automobiles to soap. They 
include ordinary household items such as bleach and fingernail polish 
remover, swimming pool chemicals, and lawn and garden fertilizers and 
insecticides. Welding supplies, paint and varnishes, and gasoline are 
commonplace. Radiopharmaceuticals are included, as are very highly 
regulated chemicals such as chlorine gas for water purification, sulfur 
trioxide for the making of soap products, and, of course, radioactive 
spent nuclear fuels.
    Hazmat is transported in many forms of conveyance ranging from 
ocean-going supertankers to handyman vans. By highway, hazmat is 
transported in tank trucks, on flatbeds, and inside van-type trailers. 
These materials are packaged in drums, boxes, bags, portable tanks, 
cargo tanks, and in a variety of other ways. These packages are clearly 
marked and labeled, and the transport vehicles display product markings 
and hazard class placards in order to warn emergency responders of 
their contents. Drivers carry shipping papers and emergency response 
information that clearly identifies the hazmat on board their vehicle 
and provides emergency responders with immediate response information.
    Annually in the U.S., there are at least 300 million hazmat 
shipments totaling approximately 3.2 billion tons.\1\ The U.S. 
Department of Transportation's Office of Hazardous Materials Safety 
estimates the number of hazmat shipments in the U.S. at more than 
800,000 per day--94% of these shipments are carried by truck. 
Approximately 500,000 daily shipments involve chemical and allied 
products; about 300,000 involve petroleum products; and at least 10,000 
other shipments involve waste hazmat, medical wastes and various other 
hazardous materials. Shipments are defined as equivalent to deliveries, 
and in most instances may be distinguished from the number of 
movements, trip segments, or other measures. The estimated number of 
movements associated with these shipments exceeds 1.2 million per day.
---------------------------------------------------------------------------
    \1\ Department Wide Program Evaluation of the Hazardous Materials 
Transportation Programs, Executive Summary, U. S. Department of 
Transportation, March 2000, p. v.
---------------------------------------------------------------------------
    As previously mentioned, all hazmat is highly regulated; however, 
certain materials demand an even higher level of oversight. For 
instance, high-level nuclear wastes from power plants are closely 
monitored by several federal agencies, including the Department of 
Energy (DOE) and DOT. Transportation of radioactive materials is highly 
regulated, and trucking companies involved in its movement are pre-
screened and approved by DOE. And, each truck is inspected prior to 
transporting a specific shipment of nuclear waste. In fact, the 
trucking industry played an integral role in the development of the 
Commercial Vehicle Safety Alliance's Level VI enhanced radioactive 
transporter inspection criteria, which specifically is designed to 
afford a high level of driver, vehicle, and load scrutiny prior to the 
truck leaving the shipper's facility.
    Type and condition of the transportation infrastructure affect 
hazmat risks. For example, two-lane rural roads typically have much 
higher accident rates than divided, multi-lane interstate highways. And 
similarly, interstate highway segments with narrow shoulders and 
damaged pavement are generally more risky than interstate segments 
without these problems. One way of dealing with infrastructure concerns 
is through highway routing of hazmat. Motor carrier and state 
requirements for the transportation of HRCQ RAM are very detailed in 
the FMCSRs, while the DOT gives more flexibility to the states on their 
non-HRCQ routing provisions.
    Another step that a number of states have taken to ensure the 
safety of their citizens, is to implement hazmat and/or hazardous waste 
transportation permit and registration programs. These programs 
primarily are designed to monitor the movement of hazmat into, out of, 
and through their jurisdictions. They also are designed to fund hazmat 
incident emergency response training and to allow states to closely 
scrutinize trucking companies involved in the transportation of hazmat 
through audits of the applicants. In addition, approximately 37,000 
trucking companies are registered in the DOT's Hazardous Materials 
Registration Program that provides funds for grants distributed to 
states and Indian tribes through the Hazardous Materials Emergency 
Preparedness Grants Program.
    Hopefully, with this as background, it is plain to see that the 
transportation of hazmat is highly regulated, as it should be. These 
controls have resulted in a very safe and secure system. Additionally, 
the Subcommittee may be interested to know that, according to DOT, the 
800,000 daily shipments in transportation are generally safer and more 
secure today than the 500,000 daily shipments were when they moved in 
transportation during the 1980s.\2\ However, these shipments can be 
made even safer and more secure in the future by expanding and 
improving our highway infrastructure, and through the adoption of the 
additional proposals outlined below.
---------------------------------------------------------------------------
    \2\ Hazardous Materials Shipments, Office of Hazardous Materials 
Safety, Research and Special Programs Administration, October 1998, p. 
10
---------------------------------------------------------------------------
       IV. Legislative Remedies to Increase Security in Trucking

    Mr. Chairman, this hearing is both timely and necessary. We need to 
re-examine the security of our nation's infrastructure, and we should 
take the reasonably available steps to ensure the infrastructure will 
be there to allow companies like mine to deliver goods to America's 
consumers and manufacturers in a timely, efficient manner. I would now 
like to suggest some specific legislative actions that would help 
ensure America's motor carriers' ability to continue to supply 
America's economic engine.

                      INFRASTRUCTURE IMPROVEMENTS

    While much attention has appropriately been directed toward 
aviation security, if additional terrorist attacks occur in the U.S., 
the surface transportation system is a more likely target, based on 
past history. Fifty-eight percent of terrorist attacks worldwide are 
directed at transportation systems. Of these attacks, the surface 
transportation system is targeted 92 percent of the time. Undoubtedly, 
it is an enormous challenge to safeguard 3.8 million miles of highway, 
nearly 600,000 highway bridges, and some 400 highway tunnels throughout 
the U.S. However, steps can be taken to protect the most vulnerable of 
these assets, such as tunnels and major bridges. Ruan and the trucking 
industry support reasonable measures to protect these assets. It must 
be recognized, however, that any disruptions to truck travel, whether 
as a result of a terrorist attack or restrictions placed on truck 
travel to prevent such attacks, have economic consequences that will 
ultimately spread throughout the national economy. Furthermore, because 
of the military's heavy reliance on truck transportation, any 
interruption to our industry also affects the military's ability to 
move troops and equipment. As the interdependence of the transportation 
system grows, and as more manufacturers adopt time-definite delivery 
strategies, the potential impacts of surface transportation system 
disruptions will increase.
    We believe that long-term measures should be taken to mitigate 
these potential impacts. As we have learned from natural disasters, the 
key to minimizing transportation disruptions is system redundancy. In 
the wake of a major earthquake that shut down several major highways, 
San Francisco residents were able to adjust their travel patterns 
relatively quickly due to the availability of other modes of 
transportation and an extensive highway system. On the other side of 
the coin, the closure of Route 93 over the Hoover Dam to trucks in the 
wake of the September 11 attacks has forced truckers in the Las Vegas 
area to take long detours. The closest crossing point to the Hoover Dam 
is nearly 70 miles away. This is an example of a lack of redundancy in 
the highway system, which is repeated throughout the nation. 
Fortunately, an alternative crossing near the Hoover Dam is being 
planned, but completion is not expected for several more years. Where 
alternate routes to vulnerable bridges and tunnels are being 
considered, or are under construction, the trucking industry recommends 
that these projects be accelerated through additional funding and the 
expedited approval of environmental reviews.
    In addition, Congress should reassess the continuing trend toward a 
federal transportation program that fails to prioritize spending on the 
National Highway System (NHS). The NHS, which includes the Interstate 
Highway System and other principal highways, carries 75 percent of the 
nation's truck traffic. It serves 53 land borders and 242 military 
installations. Despite the obvious commercial and military importance 
of the NHS, one-third of the system is in poor or mediocre condition, 
and one-quarter of NHS bridges are deficient. Furthermore, the lack of 
system capacity expansion over the past three decades has led to severe 
congestion on a large part of this system. The NHS is the backbone of 
the commercial and military transportation infrastructure, and its many 
deficiencies will compound any system interruptions that occur as the 
result of a terrorist attack. The trucking industry recommends that 
Congress should direct additional funds to the NHS and other highways 
of national significance.

                       CRIMINAL BACKGROUND CHECKS

    While trucking companies do not possess any authority over our 
nation's highways, there are certain actions motor carriers can take to 
play a role in safeguarding the roads, bridges and tunnels essential to 
our doing our job. One measure to help prevent evildoers from using 
trucks to purposely harm transportation infrastructure is to conduct 
criminal background checks. We at Ruan currently review each driver's 
employment history, and we attempt to conduct criminal background 
checks on drivers. However, our ability to conduct the criminal 
background checks is limited to a slow, costly and cumbersome county-
by-county search. All in the industry agree that a nationwide check 
under the present scheme is simply not feasible. While Ruan and its 
fellow ATA members did not envision the evil wrought on September 11 
when the ATA Board of Directors in 1999 directed the ATA staff to 
pursue cargo theft deterrence legislation that would enable motor 
carriers to obtain criminal background information on all current and 
prospective employees, such legislation would be an effective step in 
addressing the threats we now know await--both to our people and our 
transportation infrastructure.
    The possibility of a truck being used as a weapon of mass 
destruction, while unthinkable before, is now a reality. Numerous other 
industries with employees who have a demonstrated impact on public 
security or are in a position of public trust have been authorized by 
statute to access national crime information databases to search 
criminal history records corresponding to fingerprints or other 
identification information. The list includes federally chartered banks 
and credit unions through the American Bankers Association, child care 
providers, nuclear facility operators, nursing facilities, home health 
care agencies, and airports. Motor carriers are a glaring omission.
    A scenario in which a truck driver or motor carrier warehouseman 
could wreak a similar level of destruction to a major freight corridor 
as the September 11 perpetrators wrought through air transport means is 
no longer hard to imagine. Yet, although ATA has sought authorization 
from Congress to allow motor carriers to conduct criminal background 
checks of employees and potential employees, the trucking industry 
remains without this basic tool. Ruan fully supports ATA's efforts on 
behalf of the trucking industry, and I know that ATA stands willing to 
work with this Congress to enact legislation that would enable motor 
carriers to access national crime information databases to conduct 
nationwide criminal background checks. I truly hope that this 
Subcommittee and the full Committee will enact such legislation and 
thus allow motor carriers to assist with the security of our nation.
    Moreover, the recent events have highlighted the need to enhance 
communications between the various federal databases. Ruan supports 
federal efforts to enhance interoperability and communications between 
various federal criminal history and immigration databases, which would 
assist in screening out potential threats. There is some consideration 
being given in the Congress to have state licensing agencies check 
criminal history and other relevant databases prior to issuing CDLs to 
truck drivers. Ruan and its fellow members of ATA would support such 
requirements provided motor carriers still had the opportunity to 
conduct criminal background checks at the time of employment.

                              CARGO THEFT

    I would like to now discuss another issue that falls within the 
full Committee's jurisdiction--cargo theft. Hijacked trucks and 
trailers are no longer simply economic losses; now, they may be direct 
threats to our security. What was once an issue of great importance to 
the trucking industry before September 11 should now be an issue of 
concern for this Subcommittee.
    It is no secret that cargo theft losses in our country have a 
severe economic impact on the trucking industry, the shipping public, 
businesses of all sizes and on consumers. The losses being suffered by 
our industry from pilferage, theft and hijackings continue to be 
substantial, with figures ranging from $10 billion to $12 billion 
annually. Therefore, for a number of years the trucking industry has 
looked for various means to reduce and control the losses caused by 
such illegal acts. Ruan has implemented many security measures to 
combat cargo theft, but without some fundamental changes in the law, 
these measures cannot be fully successful.
    The lax penalties associated with, and insufficient resources 
devoted to, cargo theft have made it increasingly appealing to criminal 
elements as a source of funding. Further, some of the goods carried on 
behalf of America's producers and manufacturers may be diverted for 
sinister purposes. Therefore, Ruan respectfully requests that this 
Congress enact much-needed cargo theft deterrence legislation, as 
proposed by ATA. In addition to allowing motor carriers to conduct 
criminal background checks, ATA's legislative proposal would: 1) 
increase the criminal penalties and fines for cargo theft; 2) require 
uniform statistical reporting on cargo theft; and 3) provide increased 
funding local, state, and federal multi-jurisdictional task forces that 
have proven effective in combating cargo theft. Further, in view of the 
possible threat posed to the public by stolen commercial motor 
vehicles, any cargo theft legislation should establish a mechanism 
within DOT to allow for immediate, around-the-clock reporting of the 
theft. DOT should establish a toll-free hotline to receive reports from 
motor carriers of commercial vehicle thefts and then disseminate that 
information to federal, state, and local law enforcement personnel 
nationwide on a timely basis. Today, no such mechanism exists.
    Now, I would like to turn your attention to two other specific 
areas in which the trucking industry plays crucial roles: international 
cargo movements, and commercial driver's licenses.

        BORDER INFRASTRUCTURE FOR INTERNATIONAL CARGO MOVEMENTS

    As the members of this Subcommittee are probably aware, on 
September 11, ports of entry at our international land borders were put 
on Level 1 alert, resulting in extreme border crossing delays on, and 
severely hampering delivery of, parts and equipment for just-in-time 
deliveries at manufacturing operations. Ruan and its fellow members of 
ATA would also ask the Subcommittee to look at technologies under 
development that can facilitate enforcement efforts while at the same 
time expedite the movement of cargo across our borders. One such system 
being designed presently by U.S. Customs is the International Trade 
Data System (ITDS). The ITDS concept is simple: Traders and carriers 
submit commercially based, standard electronic data records through a 
single federal gateway for the import or export of goods. As a single 
information gateway, ITDS distributes these records to the affected 
federal trade agencies, such as U.S. Customs, INS, and the DOT, for 
their selectivity and risk assessment.
    I would urge the subcommittee to look at infrastructure needs of 
our ports of entry, in conjunction with other Senate Committees and 
Subcommittees with oversight of border agencies, to establish 
appropriate levels of human resources in addition to investments in 
technology infrastructure, such as the ITDS. Both Canada and Mexico, 
our largest and second largest trading partners respectively, play a 
critical role in our economic wellbeing through our economic 
interdependence. We cannot overlook the critical link that motor 
carriers play in the success of our increasing trade flows within North 
America. Therefore, we must continue to find solutions that will 
continue to allow us to move the legal commodity flows among our three 
nations, while at the same time improve our security relationships 
between the trade community and law enforcement agencies at our 
borders.

                   COMMERCIAL DRIVER'S LICENSE ISSUES

    With the full support of the trucking industry, the U.S. Congress, 
DOT and the states have been instrumental in establishing a generally 
successful CDL program. However, the fact that suspected terrorists 
have illegally obtained CDLs with hazardous materials endorsements 
should be a wake up call for all of us.
    While the federal and state governments have done a good job 
putting the regulations, programs, and information systems in place to 
administer the program, the level of effort to actively monitor and 
oversee the personnel charged with administering the program has not 
been sufficient. The suspected terrorists illegally obtaining CDLs, and 
the number of recent CDL related scandals in several states, is 
evidence that more oversight is needed, particularly as it relates to 
CDL testers and examiners. More federal personnel should be dedicated 
to program evaluation and oversight, possibly including dedicated 
federal CDL program personnel in each state. The states licensing 
agencies should also consider increasing their program oversight 
staffs, to work in greater cooperation with federal CDL oversight 
personnel. Congress should consider authorizing additional DOT 
positions for this function, and should also consider establishing a 
dedicated (and state matching) CDL grant program to provide additional 
financial assistance to states for greater program oversight.
    An additional and more specific security-related issue concerning 
the CDL program is the collection and use of a driver's Social Security 
Number (SSN) by state licensing agencies. As part of the federally-
required and state administered CDL program, state licensing agencies 
are required by DOT to collect SSNs on the CDL application. And, many 
states use the driver's SSN as the driver's state license number on the 
CDL document. The SSN is one of several ways that states uniquely 
identify truck drivers, which is an important aspect of the CDL 
program. With identity theft apparently playing a role in the recent 
attacks, the industry, the states and the federal government must 
consider ways to safeguard and even enhance personal identification 
methods. Clearly, however, we should not make it more difficult for the 
industry and the states to track the identities of truck drivers--which 
is what would occur if recently sponsored legislation on SSNs was 
passed by the Congress. Ruan knows that ATA stands ready to work with 
DOT and the Congress to enhance truck driver identifiers, and calls 
upon Members of Congress to reject legislation that would do away with 
SSNs as personal identifiers on driver licenses.

                             V. CONCLUSION

    Mr. Chairman, Ruan and its fellow ATA members understand we are 
entrusted with the secure transportation of goods that keep America 
moving forward. Law enforcement has frequently been a strong ally in 
the industry's longstanding efforts to ensure the security of cargo, on 
America's highways and across our international borders. We look 
forward to continued cooperation with those authorities charged with 
securing our nation against future terrorist threats. I know that ATA 
understands the role trucking must play to ensure our national security 
in this newly changed landscape. Ruan and the trucking industry ask 
that Congress consider the proposals discussed above which will allow 
the trucking industry to better fulfill its role to safely and securely 
transport our nation's freight.

    Chairman Biden. Thank you very much.
    I would like to thank each of the witnesses for their 
opening statements.
    As I mentioned at the outset, we are now going to go into a 
closed session. Such an act requires a motion, a second, and a 
recorded vote, with a majority of the members of the 
subcommittee voting in favor. The reason for my motion is that 
the testimony we will be hearing will disclose matters 
necessary to be kept secret in the interest of national defense 
or confidential conduct of the foreign relations of the United 
States, as set forth in Rule XXVI, section (b((5)(1).
    I therefore move that we go into closed session. Is there a 
second?
    Senator Grassley. I second it.
    Chairman Biden. Obviously, we are all in favor, since there 
are only two of us here, and the clerk will record the aye 
votes of Senator Biden and Senator Grassley.
    I am told we need a roll call of the full subcommittee. 
Proxies are appropriate. The clerk will call the roll.
    The Clerk. Mr. Kohl?
    Chairman Biden. Aye, by proxy.
    The Clerk. Mrs. Feinstein?
    Chairman Biden. Aye, by proxy.
    The Clerk. Mr. Durbin?
    Chairman Biden. Aye, by proxy.
    The Clerk. Ms. Cantwell?
    Chairman Biden. Aye, by proxy.
    The Clerk. Mr. Grassley?
    Senator Grassley. Aye.
    The Clerk. Mr. Hatch?
    Senator Grassley. We don't have a proxy.
    The Clerk. Mr. Sessions?
    Senator Grassley. Aye, by proxy.
    The Clerk. Mr. Brownback?
    Senator Grassley. Aye, by proxy.
    The Clerk. Mr. McConnell?
    Senator Grassley. Aye, by proxy.
    The Clerk. Mr. Chairman?
    Chairman Biden. Aye.
    The Clerk. Mr. Chairman, the votes are 9 yeas, no nays, and 
one pass.
    Chairman Biden. We are now in closed session. I ask the 
staff, is everyone in here associated with the witnesses? If 
not, would the staff clear the room?
    [Whereupon, at 11:38, the subcommittee was adjourned, to 
reconvene immediately in closed session.]


</pre></body></html>
